No: 19-1184

NIKKI BRUNI; JULIE COSENTINO; CYNTHIA RINALDI;
KATHLEEN LASLOW; and PATRICK MALLEY,
Petitioners,

Vv.

CITY OF PITTSBURGH; PITTSBURGH CITY COUNCIL;
MAYOR OF PITTSBURGH,

Respondents.

Certificate of Service

Catherine W. Short, a member of the bar of this Court and counsel of record for Amicus Life
Legal Defense Foundation, hereby certifies that this Brief Amicus Curiae of Life Legal Defense
Foundation has been served upon all parties, in compliance with this Court’s order of April 15,
2020, by electronically transmitting a PDF version of the document to all counsel listed below.

John Bursch
ALLIANCE DEFENDING FREEDOM
jbursch@adflegal.org

Attorney for Petitioners
Julie.Koren@pittsburghpa.gov
Yvonne.Hilton@pittsburghpa.gov
Michael.Kennedy@pittsburghpa.gov

Attorneys for Respondents

CMe Ly AA

Catherine W. Short
April 29, 2020
